   December 7, 2005




Financial Management

FY 2004 DoD Superfund
Transactions
(D-2006-035)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CEFMS                 Corps of Engineers Financial Management System
EPA                   Environmental Protection Agency
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                       December 7,2005

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Audit Report on FY 2004 DoD Superfund Transactions
         (Report No. D-2006-035)

        We are providing this report for your information and use. No written response to
this report was required, and none were received. Therefore, we are publishing this report
in final form.
         We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Kornides at (6 14) 75 1- 1400, extension 2 11, or Mr. John K. Issel at (6 14)
75 1- 1400, extension 2 12. See Appendix B for the report distribution. The team members
are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         ~aul#~ranetto,CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
          Office of the Inspector General of the Department of Defense
Report No. D-2006-035                                                  December 7, 2005
   (Project No. D2005-D000FJ-0142)

                      FY 2004 DoD Superfund Transactions

                                     Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for managing
funds provided to DoD from the Superfund should read this report. It discusses the
appropriateness of payments, obligations, and reimbursements or other uses of the
Superfund by the U.S. Army Corps of Engineers.

Background. The Environmental Protection Agency manages the Superfund, which is a
trust fund established by Congress to respond to hazardous waste emergencies and to
fund the cleanup of hazardous waste. The Superfund pays for the cleanup of hazardous
waste when the responsible party either cannot be identified or will not perform the
cleanup work and when a State will not assume responsibility. The Environmental
Protection Agency has contracted with the U.S. Army Corps of Engineers to manage the
design and construction of cleanup sites and to perform other related tasks which are paid
for with money from the Superfund. The Environmental Protection Agency issued
program authority to the U.S. Army Corps of Engineers through interagency agreements.

Results. The U.S. Army Corps of Engineers properly recorded and supported the
majority of the payments, obligations, and reimbursements or other uses of the Superfund
that we reviewed. We audited 200 Superfund transactions that represented $22.4 million
of the $82.1 million disbursed in FY 2004. Nine of the 200 transactions in our judgment
sample were improperly coded during the data entry process. However, the district office
that was responsible for reviewing the transactions detected the errors and the erroneous
transactions were not charged to the Superfund. Management control programs,
compliance with applicable laws and regulations, and criteria governing Superfund
financial transactions were effective in that we identified no material weaknesses, legal
or regulatory noncompliance, or expenditures not meeting criteria.

Management Comments. We provided a draft of this report on October 25, 2005. No
written response was required, and none was received. Therefore, we are publishing this
report in final form.
Table of Contents

Executive Summary                       i

Background                              1

Objective                               1

Managers’ Internal Control Program      2

Finding
     Superfund Financial Transactions   3

Appendixes
     A. Scope and Methodology           5
         Prior Coverage                 6
     B. Report Distribution             7
Background
    Superfund Responsibilities. The Comprehensive Environmental Response,
    Compensation, and Liability Act, commonly known as Superfund was enacted by
    Congress on December 11, 1980. This law created a tax on the chemical and
    petroleum industries. The tax money collected was then deposited in a trust fund
    to pay for cleaning up abandoned or uncontrolled hazardous waste sites.

    The Superfund trust fund provides the resources the Environmental Protection
    Agency (EPA) needs to respond to hazardous waste emergencies and to clean up
    hazardous waste when the responsible party either cannot be identified or will not
    perform the cleanup work and when a State will not assume responsibility.

    The EPA is the manager of the Superfund but the EPA has made agreements with
    the U.S. Army Corps of Engineers (the Corps) that call for the Corps to manage
    the design and implementation of remedial actions for cleanup of certain
    hazardous waste sites using money from the Superfund. During FY 2004,
    33 Corps offices administered Superfund-related work.

    The EPA issued authority to the Corps to manage Superfund money through
    interagency agreements. During FY 2004, the Corps recorded $82.1 million in
    Superfund disbursements.

    Legislative Requirements. This audit was performed under the provisions of
    section 311(a), Satisfaction of Requirements, Public Law 108-375, “Ronald W.
    Reagan National Defense Authorization Act for Fiscal Year 2005.” The Act
    requires a periodic review of uses of the Superfund by the Department of Defense
    Office of Inspector General.


Objective
    The audit objective was to determine whether the Corps properly administered the
    Superfund resources it received. Specifically, we determined whether the Corps’
    payments, obligations, reimbursements, or other uses of the Fund were supported
    and accurately recorded, and whether disbursements and their related obligation
    transactions were properly charged to Superfund projects during FY 2004. Also,
    we assessed the management control program, compliance with applicable laws
    and regulations, and criteria governing Superfund projects. See Appendix A for a
    discussion of the audit scope and methodology.




                                        1
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Corps’ management controls over the accounting and recording
    of Superfund disbursements and related obligations. Specifically, we reviewed
    the management controls established to ensure that Superfund disbursements and
    related obligations were reliable and completely recorded and that proper
    documentation was maintained to support the recorded transactions. We did not
    identify material weaknesses, and, therefore, did not assess the adequacy of
    management’s self-evaluation.

    Adequacy of Management Controls. The Corps had established management
    controls over the disbursement and related obligations for 200 transactions at
    10 sites reviewed. The disbursements and related obligations were in accordance
    with applicable laws and regulations. Management controls at the Corps sites
    visited were adequate in that no material management control weaknesses were
    identified.




                                       2
           Superfund Financial Transactions
           The Corps properly recorded and supported the majority of the payments,
           obligations, and reimbursements or other uses of the Superfund that we
           reviewed. We audited 200 Superfund transactions that represented
           $22.4 million of the $82.1 million disbursed in FY 2004. Nine of the 200
           transactions in our sample were improperly coded during the data entry
           process. However, the district office that was responsible for reviewing
           the transactions detected the errors and the erroneous transactions were
           not charged to the Superfund. Management control programs, compliance
           with applicable laws and regulations, and criteria governing Superfund
           financial transactions were effective in that we identified no material
           weaknesses, legal or regulatory noncompliance, or expenditures not
           meeting criteria.


Administration of the Superfund
    Superfund Transactions. The Corps recorded all of its FY 2004 Superfund-
    related transactions in its centralized automated system, the Corps of Engineers
    Financial Management System (CEFMS). Each Corps site managing Superfund
    work retained the authorization and supporting documentation for its Superfund
    transactions. For FY 2004, CEFMS reflected 7,728 disbursement transactions,
    worth $82.1 million, that were made from 33 Corps administrative sites using
    Superfund monies.

    We judgmentally selected 200 disbursement and related obligation transactions,
    worth $22.4 million, from the 10 administering sites that were responsible for the
    selected transactions. As part of the audit, we visited the 10 sites and obtained
    and audited the applicable authorizing and supporting documentation.

    Disbursement and Obligation Transactions. For 191 of 200 transactions, the
    Corps properly charged the Superfund. The transactions were properly
    authorized and had adequate support documentation.

    At the Engineer Research and Development Center (Waterways), Vicksburg,
    Mississippi, 9 transactions (totaling $13,633.44) out of 20 transactions (totaling
    $35,720.69) were miscoded in CEFMS. The errors were related to work the
    Corps’ Baltimore District had requested from the Waterways research facility in
    support of a non-Superfund EPA project. The work was not Superfund-related
    but was funded through a Military Interdepartmental Purchase Request which was
    similar to the way Waterways receives Superfund work. Waterways personnel
    erroneously coded it as Superfund-related in CEFMS.

    As the Baltimore District personnel began to process the transactions from
    Waterways, they recognized that Waterways had incorrectly charged the non-
    Superfund work to the Superfund in CEFMS. The error was detected as part of
    Baltimore District’s internal control review process, and the transactions were
    corrected before any charges were sent to EPA. As a result, there was no effect
    on the Superfund.
                                         3
    In general, although miscoding of the nine transactions occurred, we concluded
    internal controls were adequate. We believe an appropriate level of internal
    control existed at the Baltimore District to verify that only Superfund work was
    charged to the Superfund and that adequate internal controls were in place to
    ensure the appropriateness of charges to the Superfund.

    There were no other errors in the transactions we reviewed. The table
    summarizes results of our sample with data on the number of Corps transactions
    reviewed.



                                   Results of Review

                          Sample         Sample         Sample         Error
    Location              Size           Errors         Value          Value
                                                             in thousands
    Baltimore               20                0          $ 2,427         $0
    New York                20                0            4,150          0
    Philadelphia            20                0            3,800          0
    New England             20                0            4,936          0
    Seattle                 20                0              885          0
    Nashville               20                0              587          0
    Jacksonville            20                0            2,046          0
    Mobile                  20                0              670          0
    Los Angeles             20                0            2,883          0
    Waterways               20                9               36         14

       Total               200                9         $22,420          $14


Conclusion
    We identified miscoded transactions, but the errors were all corrected by the
    Corps prior to charging the Superfund. The policies, procedures, and controls
    established by the Corps effectively managed the Superfund disbursement and
    obligation transactions we examined. We did not identify instances of
    noncompliance with the laws and regulations governing Superfund transactions.
    We did not identify indications of weaknesses in applying the criteria governing
    Superfund projects. This report contains no recommendations.




                                         4
Appendix A. Scope and Methodology
   The CEFMS database reflected 7,728 Superfund disbursement transactions, with
   a value of $82.1 million, for FY 2004. The transactions were administered by
   33 Corps sites. We judgmentally selected 200 disbursement transactions with
   related obligations, valued at $22.4 million, which were administered at 10 Corps
   sites. We selected the 10 sites responsible for disbursing the higher amounts
   related to Superfund. We selected the 20 largest dollar value disbursements for
   each of the 10 selected sites. For each of the selected transactions, we obtained
   supporting documentation, such as contracts, contract modifications, interagency
   or interdistrict agreements, travel authorizations, purchase requests, receiving
   reports, contract invoices, and other appropriate documents. The documents were
   examined to determine that the documents supported the transactions and were
   properly authorized and recorded.



                      Superfund Disbursement Transactions
                               and Sample Size

                         Total                                        Value of
                         Disbursement          Value of               Sample
   Location              Transactions          Transactions           Transactions
                                                           in thousands
   Baltimore                  463                $ 2,752                  $ 2,427
   New York                   511                  8,811                    4,150
   Philadelphia               377                  5,379                    3,800
   New England              1,003                 13,877                    4,936
   Seattle                    986                  1,901                      885
   Nashville                   79                    920                      587
   Jacksonville               256                  2,899                    2,046
   Mobile                      99                    683                      670
   Los Angeles                353                  4,967                    2,883
   Waterways                  138                     67                       36

      Sample Total          4,265                $42,256                  $22,420




                                        5
    We performed this audit from March 2005 through September 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data
    extracted from CEFMS. Although we did not formally assess the reliability of the
    computer-processed data, the source documentation agreed with the computer-
    processed data used in the transactions reviewed. We did not find errors that
    would preclude the use of the computer-processed data to meet the audit
    objective.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued two reports discussing Superfund financial transactions. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.osd.mil/audit/reports.


DoD IG
    DoD IG Report No. D-2001-174, “FY 2000 DoD Superfund Financial
    Transactions,” August 16, 2001

    DoD IG Report No. D-2000-184, “FY 1999 DoD Superfund Financial
    Transactions,” August 31, 2000




                                        6
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget
Administrator, U.S. Environmental Protection Agency
Government Accountability Office




                                          7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        8
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service Directorate, prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Walter J. Carney
Eric T. Thacker
Terry D. Holdren
John P. Frawley
William C. Blouvet
